No.
DENIS QUINETTE,
Petitioner,
v.
DILMUS REED, CHIEF LYNDA COKER, CHIEF DEPUTY
MILTON BECK, COLONEL DONALD BARTLETT, COLONEL
LEWIS ALDER, COLONEL JANICE PRINCE, COLONEL
ROLAND CRAIG, and SHERIFF NEIL WARREN,
Respondents.
CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1(h), I certify that
the petition for a Writ of Certiorari has 8,847 words,
excluding the parts of this document that are exempted
by Supreme Court Rule 33.1(d).
/s/ Mark Begnaud
Counsel of Record

